No. 19-357
In The

(Houri of

City of Chicago,
Petitioner,
V.

Robbin L. Fulton,
George Peake, and Timothy Shannon,
Respondents.

CERTIFICATE OF SERVICE

I, Catherine Steege, hereby certify that I am a member of the bar of this Court
and that I have this 4th day of March, 2020, caused three copies of the foregoing Brief
For Respondents to be served via electronic mail and UPS overnight delivery, postage
prepaid on:
Mark A. Flessner
City of Chicago
Office of Corporation Counsel
30 N. LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-7764

Craig Goldblatt
Counsel of Record
Wilmer Cutler Pickering
Hale and Dorr LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

Counsel for Petition^

Catherine Steege

Zhd

